Department of Health and Human Services
                   OFFICE OF
              INSPECTOR GENERAL




   THE RHODE ISLAND MEDICAID
PROGRAM COULD LOWER PAYMENTS
 FOR SELECTED DURABLE MEDICAL
    EQUIPMENT AND SUPPLIES




  Inquiries about this report may be addressed to the Office of Public Affairs at
                           Public.Affairs@oig.hhs.gov.




                                                      David Lamir
                                               Regional Inspector General
                                                   for Audit Services

                                                        July 2014
                                                      A-01-13-00006
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                     EXECUTIVES~ARY


 Rhode Island Medicaid could have saved approximately $1 million on selected durable
 medical equipment incontinence items by limiting reimbursement to the most frequently
 reimbursed usual and customary charge amounts from July 2010 through June 2011.


WHY WE DID THIS REVIEW

The Rhode Island Executive Office of Health and Human Services, Office of Medicaid (State
agency) reimbursed 234 durable medical equipment (DME) providers $7,725,191 for 660 DME
items provided from July 2010 through June 2011. Of this amount, the State agency reimbursed
115 providers $3,257,455 (42 percent) for 16 selected DME incontinence items, such as
protective underwear, diapers, and liners .

The State agency has recently undertaken steps to control costs for DME items. In 2009, the
State agency implemented a 5 percent reduction to the fee schedule for DME items. However,
State agency officials stated that further measures to control costs are necessary. Accordingly,
the State agency requested our assistance to identify further options to control costs for these 16
DMEitems.

In addition, previous Office of Inspector General reviews in other States found that State
Medicaid agencies achieved considerable savings by implementing measures aimed at
controlling costs for DME items.

The objective of this review was to determine whether the State agency could have realized cost
savings for the 16 selected DME items.

BACKGROUND

The State agency administers the Rhode Island Medicaid program. The State agency established
a payment fee structure designed to enlist a sufficient number of providers in the Medicaid
program. From July 2010 through June 2011, 234 providers chose to enlist and receive
Medicaid reimbursements for DME items in Rhode Island. The State agency reimbursed DME
providers the lesser of the Medicaid fee schedule payment amount or providers' usual and
customary charge.

WHAT WE FOUND

The State agency could have realized cost savings for 16 selected DME items. The State agency
correctly reimbursed all115 DME providers for the 16 selected DME items. It reimbursed 97 of
those DME providers their usual and customary charges, which were less than the fee schedule
payment amounts. The State agency reimbursed the remaining 18 DME providers the fee
schedule payment amounts because these providers' usual and customary charges were equal to
or greater than the fee schedule payment amounts. However, we calculated that the State agency
could have saved $1,014,990 ($608,258 Federal share) for the 16 DME items if it had reduced the

The Rhode Island Medicaid Program Could Lower Payments for Selected Durable Medical Equipment
and Supplies (A-01-13-00006)
fee schedule payment amounts to the amounts based on the most frequently reimbursed DME
providers' usual and customary charges for these 16 DME items.

The State agency does not have a process for (1) identifying whether significant differences
existed between the fee schedule payment amounts and the majority of DME providers' usual
and customary charges for the 16 DME items and (2) adjusting the fee schedule payment
amounts if such significant differences existed.

WHAT WE RECOMMEND

We recommend that the State agency:

    • 	 develop a process to determine whether significant differences existed between the fee
        schedule payment amounts and the majority of providers' usual and customary charges
        for the 16 DME items and

    • 	 adjust the fee schedule payment amounts if such significant differences existed. These
        adjustments would have resulted in total cost savings of $1,014,990 ($608,258 Federal
        share) from July 2010 through June 2011 for these 16 DME items.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency concurred with our conclusions.




The Rhode Island Medicaid Program Could Lower Payments for Selected Durable Medical Equipment
and Supplies (A-01-13-00006)                                                                    ii
                                                     TABLE OF CONTENTS 



INTRODUCTION ................................................................................................................. 1 


           Why We Did This Review . ...................................... ~ ................................................. 1 


           Objective .................................................................................................................... 1 


           Background ............................................................................................................... .1 

                 The Medicaid Program: How Payment Rates Are Determined 

                   for Rhode Island's Durable Medical Equipment Items .............................. 1 


           How We Conducted This Review ..............................................................................2 


FINDING ............................................................................................................................ :..2 


           Federal and State Requirements ............................... ~·················································2 


           Opportunities for Cost Savings Exist. ........................................................................ 3 


           Causes of Higher-Than-Necessary Fee Schedule Amounts ..................................... .4 


RECOMMENDATIONS .......................................................................................................4 


STATE AGENCY COMMENTS ................................................................... .4 


APPENDIXES 


           A: Related Office of Inspector General Reports .......................................................5 


           B: Potential Cost Savings for Selected Durable Medical Equipment Items ............. 6 


           C: Audit Scope and Methodology .............................................................................8 


           D: State Agency Comments ................................................................ 10 





The Rhode Island Medicaid Program Could Lower Payments for Selected Durable Medical Equipment
and Supplies (A-01-13-00006)                                                                                                               iii
                                                 INTRODUCTION 


WHY WE DID THIS REVIEW 


The Rhode Island Executive Office of Health and Human Services, Office of Medicaid (State
agency) reimbursed 234 durable medical equipment (DME) providers $7,725,191 for 660 DME
items from July 2010 through June 2011. Of this amount, the State agency reimbursed 115
providers $3,257,455 (42 percent) for 16 DME incontinence items, such as protective underwear,
diapers, and liners.

The State agency has recently taken steps to control costs for DME items. In 2009, the State
agency implemented a 5 percent reduction to the fee schedule for DME items and supplies.
However, State agency officials informed us that further measures to control costs are necessary.
Office of Inspector General reviews in other States have found that State Medicaid agencies
achieved considerable savings by implementing measures aimed at controlling costs for DME
items. 1 The State agency requested our assistance to identify further options to control costs for
DME incontinence items.

OBJECTIVE

Our objective was to determine whether the State agency could have realized cost savings for the
16 selected DME items.

BACKGROUND

The Medicaid Program: How Payment Rates Are Determined for Rhode Island's
Durable Medical Equipment Items

The State agency administers the Rhode Island Medicaid program. Federal requirements allow
States to establish their own Medicaid provider payment rates. One methodology States,
including Rhode Island, use to establish Medicaid provider payment rates is a fee-for-service
arrangement, in which States pay providers directly for services. The fee-for-service payment
rates may be based on the costs of providing the services, a review of what commercial payers
pay in the private market, or a percentage of what Medicare pays for equivalent services.

In Rhode Island, the State agency established a payment fee structure designed to enlist a
sufficient number of providers in the Medicaid program so that eligible persons could receive
medical care and services to the extent available to the general population? From July 2010
through June 2011, 234 providers chose to enlist in the program and receive Medicaid
reimbursements for DME items.



1
    Appendix A displays a list list of prior OIG reviews.
2
    Rhode Island State Plan, attachment4.19B .

The Rhode Island Medicaid Program Could Lower Payments for Selected Durable Medical Equipment
and Supplies (A-01-/3-00006)                                                                    I
HOW WE CONDUCTED TIDS REVIEW 


The State agency made DME payments totaling $7,725,191 for 660 DME items and supplies
provided from July 2010 through June 2011. We limited our review to 16 DME items totaling
$3,257,455, or 42 percent of all DME payments for the audit period. 3

We analyzed State agency payments to providers to identify the most frequently reimbursed
amounts for the 16 DME incontinence items. Of the $3,257,455, the State agency reimbursed 18
providers $2,528,763 at the fee schedule amount and 97 providers $728,692 at their usual and
customary charges. To identify potential cost savings for these 16 DME items, we recalculated
the amounts that the State agency would have paid if all payments were based on the most
frequently reimbursed usual and customary charge and compared our Tesults to the actual State
agency reimbursed amounts.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

Appendix C contains the details of our scope and methodology.

                                                     FINDING

The State agency could have realized cost savings for 16 selected DME items. The State agency
correctly reimbursed alll15 DME providers for the 16 selected DME items. It reimbursed 97 of
those DME providers their usual and customary charges, which were less than the fee schedule
payment amounts. The State agency reimbursed the remaining 18 DME providers the fee
schedule payment amounts because these providers' usual and customary charges were equal to
or greater than the fee schedule payment amounts . However, we calculated that the State agency
could have saved $1,014,990 ($608,258 Federal share) for the 16 DME items if it had reduced the
fee schedule payment amounts to the amounts based on the most frequently reimbursed DME
providers' usual and customary charges for these 16 DME items.

The State agency does not have a process for (1) identifying whether significant differences
existed between the fee schedule payment amounts and the majority of DME providers ' usual
and customary charges for the 16 DME items and (2) adjusting the fee schedule payment
amounts if such significant differences existed.

FEDERAL AND STATE REQIDREMENTS

The State agency established a payment fee structure designed to enlist a sufficient number of
providers in the program so that eligible persons can receive medical care and services included
in the plan at least to the extent these are available to the general population (The Rhode Island

3
    See Appendix B for a detailed list of DME items that we reviewed for cost savings.

The Rhode Island Medicaid Program Could Lower Payments for Selected Durable Medical Equipment
and Supplies (A-01-13-00006)                                                                    2
State Plan, attachment 4.19B).

No medical assistance provider. may bill or charge the State agency more than the providers'
usual and customary charges (Rhode Island General Law, title 40, chapter 40-8, § 40-8-4.1(a)
and (b)) . The term "usual and customary" means the lowest charge, fee, or rate charged by a
provider for any product or service at the time such product or service was provided.

The State agency reimburses DME providers the lesser of the current Medicaid fee schedule
payment amount or the providers' usual and customary charge (Rhode Island Durable Medical
Equipment Manual). This poliCy is predicated on the prudent buyer concept (i.e., not paying
more for an item when it generally can be obtained at a lesser cost).

OPPORTUNITIES FOR COST SAVINGS EXIST

The State agency properly reimbursed 97 DME providers their usual and customary charges,
which were less than the fee schedule payment amounts. The State agency also reimbursed 18
DME providers the fee schedule payment amounts because their usual and customary charges
were equal to or greater than the fee schedule payment amounts. However, the difference
between the number of providers reimbursed usual and customary charges (97 or 84 percent) and
those reimbursed fee schedule amounts (18 or 16 percent) indicates that the State agency's DME
fee schedule payment amounts are higher than necessary.

Accordingly, there are a variety of approaches that the State agency could have used to reduce its
cost for the 16 selected DME items without restricting the number ofDME providers
participating in Medicaid. These approaches include confirming and utilizing other State
agencies' fee schedule payment amounts, using the State agency's lowest or average provider
claim amounts for a specific DME item, or limiting reimbursement to more frequently reimbursed
usual and customary charges.

We elected to base our analysis on limiting reimbursement to the more frequently reimbursed
usual and customary charges in order to estimate potential cost savings. Specifically, we
compared the total the State agency reimbursed for the 16 DME items and the amount that the
State agency would have reimbursed if the fee schedule payment amount were reduced to the
most frequently occurring usual and customary charge amounts.

For example, the State agency reimbursed DME providers $377,463 for medium adult sized
disposable diapers (T4522). However, the State agency would have only reimbursed the DME
providers $133,831 for this item if it had adjusted its fee schedule from 95 cents to 33 cents (the
providers' most frequently occurring usual and customary charge amounts). Therefore, the State
agency's cost for this DME item would have been reduced by $243,632 ($377,463 less
$133,831).

The following table illustrates two additional examples of potential cost savings that the State
agency could have achieved by reducing the fee schedule payment amounts to the providers'
most frequently occurring usual and customary charge amounts.


The Rhode Island Medicaid Program .Could Lower Payments for Selected Durable Medical Equipment
and Supplies (A-OJ -1 3-00006)                                                                   3
                   Table: Examples of Potential Cost Savings Using the Most 

                         Frequently Occurring Unit Charge Amounts 


                              Rhode Island        Most Frequently
 Product Description                                                    Actual Units      Potential
                              Fee Schedule          Occurring
     (HCPCS)                                                            Reimbursed       Cost Savings
                                Amount            Charge Amount
    Small adult sized
 disposable brief/diaper            $.95                 $.50 .            212,468              $95,288
        (T4525)
    Large adult sized
  disposable protective
                                    $.95                 $.56              497,7 18         $188,053
   underwear/pull-on
        (T4523)

We further calculated an additional savings of $488,01 7 for the remaining 13 DME items for a
total potential savings of $1,014,990 (Appendix B).

CAUSES OF IDGHER-THAN-NECESSARY FEE SCHEDULE AMOUNTS

The State agency does not have a process for (1) identifying whether significant differences
existed between the fee schedule payment amounts and the majority of DME providers' usual
and customary charges for the 16 DME items and (2) adjusting the fee schedule payment
amounts if such significant differences existed.

                                      RECOMMENDATIONS

We recommend that the State agency:

    • 	 develop a process to determine whether significant differences existed between the fee
        schedule payment amounts and the majority of providers' usual and customary charges
        for the 16 DME items and

    • 	 adjust the fee schedule payment amounts if such significant differe11ces existed. These
        adjustments would have resulted in total cost savings of $1,014,990 ($608,258 Federal
        share) from July 2010 through June 2011 for these 16 DME items.

                                 STATE AGENCY COMMENTS

In written comments on our dra,ft report, the State agency concurred with our conclusions. The
State agency's comments are included in their entirety as Appendix D.




The Rhode Island Medicaid Program Could Lower Payments for Selected Durable Medical Equipment
and Supplies (A -01-13 -00006)                                                                       4
           APPENDIX A: RELATED OFFICE OF INSPECTOR GENERAL REPORTS 


                                                                                                Date
Report Title                                                       Report Number                Issued
Ohio Medicaid Costs for Home Blood-Glucose Test Strips             A -05-11 -00098              03/ 13112
Could Be Reduced By Approximately 50 Percent
Indiana Reduced Medicaid Costs for Home Blood-Glucose              A -05-12 -00011              06121112
Test Strips by Approximately 50 Percent Using
Manufacturer Rebates
The Ohio Medicaid Program Could Significantly Lower                A-05-12-00038                04/30/ 13
Payment Rates for Selected Durable Medical Equipment
and Supplies
Illinois Significantly Reduced Medicaid Costs for Home             A -05-12 -00009              05/06/13
Blood-Glucose Test Strips But Could Achieve Additional
Reductions
The New York State Manufacturer Rebate Program                     A-02-11-01042                07102/ 13
Significantly Reduced Medicaid Costs for Home Blood-
Glucose Test Strips But Could Achieve Additional
Reductions




The Rhode Island Medicaid Program Could Lower Payments for Selected Durable Medical Equipment
and Supplies (A -01-13 -00006)                                                                        5
 APPENDIX B: POTENTIAL COST SAVINGS FOR SELECTED DURABLE MEDICAL 

                         EQUIPMENT ITEMS 


                                                                  Most
                                                   RI           Frequently        Potential
                Product Description                                                              Savings
HCPCS                                            Medicaid       Occurring           Cost
                                                                                                   %
                                                  Costs          Charge           Savings
                                                                 Amount
          Adult sized disposable
T4521     incontinence product,                     $77,996           $55,307         $22,689     29%
          brief/diaper, small, each
          Adult sized disposable
T4522     incontinence product,                     377,463           133,831         243 ,632    65%
          brief/diaper, medium, each
          Adult sized disposable
T4523     incontinence product,                     466,780           278,727         188,053     40%
          brief/diaper, large, each
          Adult sized disposable
T4524     incontinence product,.                     142,022           94,043          47,978     34%
          brief/diaper, extra large, each
          Adult sized disposable
T4525     incontinence product, protective          201,522           106,234          95,288     47%
          underwear/pull-on, small, each
          Adult sized disposable
          incontinence product, protective
T4526                                               242,483           194,880          47,603     20%
          underwear/pull-on, medium,
          each
          Adult sized disposable
T4527     incontinence product, protective          377,842           304,083          73,760     20%
          underwear/pull-on, large, each
          Adult sized disposable
          incontinence product, protective
T4528                                               201 ,841          113,250          88,591     44%
          underwear/pull-on, extra large,
          each
          Pediatric sized disposable
T4529     incontinence product,                        9,494            6,700            2,794    29%
          brief/diaper, small/medium
          Pediatric sized disposable,
T4530     incontinence product,                       94,042           59,093          34,949     37%
          brief/diaper, large size, each
          Pediatric sized disposable
          incontinence product, protective
T4531                                                 32,585           20,809          11,776     36%
          underwear/pull-on,
          small/medium


The Rhode Island Medicaid Program Could Lower Payments for Selected Durable Medical Equipment
and Supplies (A -01-13 -00006)                                                                     6
                                                                   Most
                                                   RI           Frequently        Potential
                                                                                                Savings
HCPCS           Product Description              Medicaid       Occurring           Cost
                                                                                                  %
                                                  Costs          Charge            Savings
                                                                 Amount
          Pediatric sized disposable
          incontinence product, protective
T4532                                                120,995           75,899          45,096    37%
          underwear/pull-on, large size,
          each
          Youth sized disposable
T4533     incontinence product,                      135,065          119,099          15,966    12%
          brief/diaper, each
          Youth sized disposable
T4534     incontinence product, protective           114,395           60,641          53,754    47%
          underwear/pull-on, each
          Disposable
T4535     liner/shield/ guard/pad/undergar          537,763           507,638          30,125     6%
          ment, for incontinence, each
          Incontinence product,' disposable
T4541                                                125,167          112,231          12,936    10%
          underpad, large, each
Total                                            $3,257,455       $2,242,465      $1,014,990     31%




The Rhode Island Medicaid Program Could Lower Payments for Selected Durable Medical Equipment
and Supplies (A -0/ -13-00006)                                                                    7
                   APPENDIX C: AUDIT SCOPE AND METHODOLOGY 


SCOPE 


The State agency made DME payments totaling $7,725,191 for 660 DME items and supplies
provided from July 2010 through June 2011. We limited our review to 16 DME incontinence
items totaling $3,257,455, or 42 percent of all DME payments for the audit period. Of the
$3,257,455, the State agency paid providers $2,528,763 at the fee schedule amount and $728,692
at the usual and customary amount.

In performing our review, we established reasonable assurance that the claims data was accurate.
We did not review the overall internal control structure of the State agency. We limited our
internal control review to obtaining an understanding of the State agency's pricing and
reimbursement policies related to the 16 selected DME items.

We performed our fieldwork in Cranston and Warwick, Rhode Island, from February through
August 2013.

METHODOLOGY

To accomplish our audit objective, we:

    • 	 reviewed Federal and State requirements;

    • 	 held discussions with State agency and CMS officials to gain an understanding of the
        DME program and the State agency's role in reimbursing DME claims;

    • 	 obtained a State agency file of73,590 paid claims totaling $7,725,191 for 660 DME
        items and supplies provided from July 1, 2010, through June 30, 2011;

    • 	 evaluated the State agericy file to identify 25,352 paid claims totaling $3,257,455 that
        were reimbursed for 16 selected DME incontinence items;

    • 	 identified Rhode Island Medicaid fee schedule payment rates for the 16 DME items;

    • 	 determined whether the State agency reimbursed the fee schedule payment amounts or
        the usual and customary charge amounts for the 16 DME incontinence items;

    • 	 removed all claims paid at the fee schedule from further analysis;

    • 	 evaluated all the remaining claims to determine the most frequently occurring usual and
        customary charge amounts for the 16 DME items;

    • 	 compared the differences between Rhode Island fee schedule amounts for DME items
        and the most frequently occurring usual and customary charge amounts for the same


The Rhode Island Medicaid Program Could Lower Payments for Selected Durable Medical Equipment
and Supplies (A-01-13-00006)                                                                    8
        DME items during the review period;

    • 	 calculated the amounts that the State agency could have paid if the Rhode Island
        Medicaid program limited reimbursements to the most frequently occurring usual and
        customary charge amounts;

    • 	 compared the amount that the State agency reimbursed providers with the most
        frequently occurring usual and customary charge amounts to calculate an approximate
        amount that Rhode Island could have saved for the 16 selected DME incontinence items;
        and

    • 	 discussed our results our audit with State agency officials.

Although we did not independently verify the reliability of all the Medicaid paid claim data, we
discussed the data with State agency officials, sorted paid claims to identify variations in
payment rates, and compared selected transactions from the State agency files to the Medicaid
Management Information System claim files in making a subjective determination of data
reliability. In our opinion, the data obtained from the State agency was sufficiently reliable for
this audit.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives .




The Rhode Island Medicaid Program Could Lower Payments for Selected Durable Medical Equipment
and Supplies (A-01 -/3 -00006)                                                                  9
                        APPENDIX D: STATE AGENCY COMMENTS 



                                               Steven M. Costantino
                                  Secretary of Health and Human Services
                           STATE OF RHODE ISLAND AND PROVIDENCE PLANTATIONS
                                        57 Howard Avenue, LP Building
                                             Cranston, RI 02920
                                                401-462-5274
June 25, 2014


Mr. David Larnir, Regional Inspector General
Department of Health and Human Services
Office oflnspector General
Office ofAudit Services, Region 1
JFK Federal Building
15 New Sudbury Street, Room 2425
Boston, MA 02203

RE: 	   Rhode Island EOHHS Response for OIG
        DMEReport

Dear Mr. Lamir:

The Rhode Island Executive Office of Health and Human Services (EOHHS) is responding to
the Office of Inspector General Report on Durable Medical Equipment the single state agency
for RI Medicaid. After review ofthe report, EOHHS is in agreement with its conclusions.

If you have any questions or are in need of further information, please call or write at your
convenience.

Thank you for yow· consideration of this response.




                    mo, Secretary
                   of Health and Human Services

SMC/lcs


c: 	    John Sullivan
        Deirdre Gifford, MD, Medicaid Director
        Bruce Mcintyre, JD, Office of Program Integrity




The Rhode Island Medicaid Program Could Lower Payments for Selected Durable Medical Equipment   10
and Supplies (A-01-1 3-00006)
